             Social Security Administration, Office of the Inspector General,
                     Office of the Counsel to the Inspector General

                                 LAW CLERK/INTERN PROGRAM
                                    POSITION ANNOUNCEMENT
                        Volunteer Law Clerk/Intern Positions Available

The Office of the Counsel to the Inspector General (OCIG) at the Social Security Administration (SSA)
provides comprehensive legal advice and representation supporting the Office of the Inspector General’s
(OIG) mission to prevent and detect fraud, waste, and abuse in SSA’s programs and operations. OCIG also
administers the Civil Monetary Penalty (CMP) Program, including the proposed imposition of penalties and
assessments and the settlement and litigation of CMP cases. OCIG attorneys occasionally accept
appointments as Special Assistant United States Attorneys to litigate such matters. OCIG also provides
advice and support to OIG staff regarding personnel matters, including the litigation of such cases before the
Merit Systems Protection Board and the Equal Employment Opportunity Commission.

MAILING LOCATION:
Social Security Administration
Office of the Inspector General, OCIG
3-ME-1, 6401 Security Boulevard
Baltimore, MD 21235

QUALIFICATIONS:
Completion of at least one year of law school and interest in public service. Desirable coursework includes:
administrative law; employment law; evidence; advanced criminal law; advanced contract law; government
contracts law; and litigation seminars/courses. Superior academic credentials, law review, and/or moot court
experience preferred.

DATE POSITIONS ARE AVAILABLE:
Summer 2014 and Fall 2014 semester appointments available – Student appointments will be on a
semester-by-semester basis, with a required minimum commitment of eight weeks during each semester of
participation. Preference will be given to applicants who can commit to a two-day, 16-hour work week.

DUTIES:
Assist OCIG attorneys and staff in developing and preparing cases for filing and providing continuing support
for ongoing litigation. Responsibilities typically include conducting legal research, drafting motions,
discovery, and memoranda of law on a variety of fraud, employment, contract, audit, and other issues. OCIG
handles cases covering a broad spectrum of issues, including the Freedom of Information Act (FOIA), the
Privacy Act, employee performance and misconduct, and civil monetary penalties authorized under §§ 1129
and 1140 of the Social Security Act. An internship with the OIG provides an outstanding opportunity to work
on novel issues of Federal law, gain practical experience, and explore the possibility of a legal career with
the Federal Government.
NUMBER OF POSITIONS AVAILABLE:
OCIG anticipates selecting up to 3 volunteer Law Clerk/Interns per semester.
SALARY:
Volunteer (without compensation), but the selectee may apply for law school academic credit, with OCIG
assistance and support.

APPLICATION PROCEDURES:
Application package should include: a cover letter with your hours/schedule availability and a statement of
your interest in public service; a resume, a law school transcript (official or unofficial); and at least one
employment reference. If you seek law school credit for the internship, please indicate that fact in your cover
letter. Submit applications electronically to David Rodriguez at david.rodriguez@ssa.gov. Please direct
questions to David Rodriguez via e-mail or phone at: (410) 965-3498.

APPLICATION DEADLINE:
Internship applications for the Summer semester are being accepted until 5 p.m., Friday, March 21, 2014.
Interviews will be conducted and selections will be made as soon as possible. Application dates for
subsequent semesters (i.e. Fall 2014) will be posted at an appropriate time.

NOTIFICATION:
Applications will be acknowledged by e-mail upon receipt. Applicants may be contacted if additional
information is needed or to schedule an interview.

OTHER REQUIREMENTS:
Candidates must successfully complete Federal Government security and suitability clearance requirements
prior to appointment.

WEBSITE:
http://oig.ssa.gov.

The United States Government does not discriminate in employment on the basis of race, color,
religion, sex (including pregnancy and gender identity), national origin, political affiliation, sexual
orientation, marital status, disability, genetic information, age, membership in an employee
organization, retaliation, parental status, military service, or other non-merit factor.
